AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
■X

Case No.
Jeremiah F. Manning,
Petitioner,
v.
Lucy J. Kim,
Respondent.
X

STATE OF NEW YORK
)
COUNTY OF NEW YORK )
I, Jeremiah F. Manning, being duly sworn according to law and being over the age
of 18, upon my oath depose and say that:
I am the Petitioner in this case.
That on the 7th day of April 2020,1 served both the within PETITION
FOR WRIT OF CERTIORARI, AND THE APPENDIX in the above-captioned
matter upon:
Respondent Lucy J. Kim
148 Goya Road
Portola Valley, CA 94028
by depositing three copies of each, addressed to Respondent at the address above, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, postage prepaid by Priority Mail Express and that
on the same date as above, I sent to this Court forty copies each of the above-referenced
booklets,plus 1 copy of each in 8.5x11 inch format, through the United States Postal
Service, postage prepaid by Priority Mail Express.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executedbn this 7m

of April 2020

Jenemiah F. Manning

Sworn to and subscribed before me this 7th Day of April 2020
JEREMIAH F. MANNING
Notary Public, State of New YoW
No. 02MA4766991
Qualified in Albany County
pmmisfSTc n Expires March 30,202

